Highlights
Table of Contents




                    Efficiency
                    Review of the
                    Cincinnati,OH,
                    Network
Findings




                    Distribution
                    Center –
                    Operations and
Recommendations




                    Transportation

                    Audit Report
                    Report Number
                    NO-AR-14-011

                    September 11, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                                            Background                                                           These conditions occurred because officials did not use best
                                                                                                                                               practices to benchmark efficiency against other NDCs; did not
                                                                          The U.S. Postal Service has 21 network distribution centers
                                                                                                                                               always follow NDC guidelines for properly sorting, labeling,
                                                                          (NDC) linked by a dedicated transportation network. NDCs are
                      Opportunities exist to improve                                                                                           and consolidating mail; and did not fully analyze existing
                                                                          responsible for sorting and transporting bulk mail — Standard
                                                                                                                                               transportation as required. If the Postal Service eliminated
                    the efficiency of some operations                     Mail, Periodicals, and Package Services.
                                                                                                                                               unnecessary workhours, it could save an average of about
Findings




                                                                                                                                               $2 million in labor costs annually. In addition, it could save about
                               at the Cincinnati NDC                      Our objective was to evaluate the efficiency of the Cincinnati,
                                                                                                                                               $473,000 annually in transportation costs by complying with
                                                                          OH, NDC’s mail processing and transportation operations. This
                      by better managing workhours                                                                                             NDC guidelines and eliminating a daily round trip.
                                                                          report is one in a series and also addresses related operations
                                                                          and transportation at the Des Moines, IA, and Pittsburgh, PA,
                    and processing more mailpieces                                                                                             Finally, we observed that mail transport equipment was not
                                                                          NDCs and feeder processing facilities.
                                                                                                                                               always properly restrained for transport to and from the NDCs
                        per hour. Opportunities also                                                                                           as required.
                                                                          What the OIG Found
Recommendations




                      exist to improve transportation
                                                                          Opportunities exist to improve the efficiency of some operations     What the OIG Recommended
                               efficiency and safety.                     at the Cincinnati NDC by better managing workhours and
                                                                                                                                               We recommended the vice president, Eastern Area, improve
                                                                          processing more mailpieces per hour. The Cincinnati NDC had
                                                                                                                                               the efficiency of the Cincinnati NDC’s manual operations and
                                                                          an average piece per hour productivity of 112 for its distribution
                                                                                                                                               reduce workhours in other operations to achieve the productivity
                                                                          operations, while comparable NDCs had an average piece per
                                                                                                                                               of comparable NDCs. We also recommended the vice
                                                                          hour productivity of 186. In addition, the Cincinnati NDC used
                                                                                                                                               presidents, Eastern and Western areas, reinforce compliance
                                                                          a higher percentage of workhours for other operations than
                                                                                                                                               with NDC guidelines, remove an unnecessary highway
                                                                          comparable NDCs. Consequently, the Cincinnati NDC used
                                                                                                                                               contract round trip, and reinforce existing safety procedures for
                                                                          51,352 more workhours than necessary.
                                                                                                                                               restraining mail transport equipment.
Appendices




                                                                          We also found some mail being unnecessarily transported from
                                                                          the Cincinnati NDC and unused space in some mail transport
                                                                          containers. In addition, some trailers transporting mail between
                                                                          the Cincinnati and Des Moines NDCs were not filled to capacity.

                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                       Print                                     1
Highlights
                    Transmittal Letter


                                                                          September 11, 2014		
Table of Contents




                                                                          MEMORANDUM FOR:	 JOSHUA D. COLIN
                                                                          				VICE PRESIDENT, EASTERN AREA

                                                                          				DREW T. ALIPERTO
                                                                          				VICE PRESIDENT, WESTERN AREA
                                                                                                         E-Signed by Robert Batta
                                                                                                       VERIFY authenticity with e-Sign


                                                                          				

                                                                          FROM: 			 Robert J. Batta
                                                                          				Deputy Assistant Inspector General
Findings




                                                                          				       for Mission Operations

                                                                          SUBJECT: 			 Audit Report – Efficiency Review of the Cincinnati, OH,
                                                                          				         Network Distribution Center – Operations and Transportation
                                                                          				(Report Number NO-AR-14-011)

                                                                          This report presents the results of our audit of the Efficiency Review of the U.S.
                                                                          Postal Service’s Cincinnati, OH, Network Distribution Center (NDC) – Operations and
Recommendations




                                                                          Transportation. The report focuses on the Cincinnati Tier 1 NDC and its associated Tier
                                                                          2 NDCs in Des Moines, IA, and Pittsburgh, PA, and feeder processing facilities (Project
                                                                          Number 14XG001NO000).

                                                                          We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                          questions or need additional information, please contact James L. Ballard, director,
                                                                          Networking Processing and Transportation, or me at 703-248-2100.

                                                                          Attachment

                                                                          cc:	   Corporate Audit and Response Management
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                             Print                  2
Highlights
                    Table of Contents
                                                                          Cover
                                                                          Highlights.......................................................................................................1
                                                                           Background.................................................................................................1
                                                                           What the OIG Found...................................................................................1
Table of Contents




                                                                           What the OIG Recommended.....................................................................1
                                                                          Transmittal Letter...........................................................................................2
                                                                          Findings.........................................................................................................4
                                                                           Introduction.................................................................................................4
                                                                           Conclusion..................................................................................................4
                                                                           Inefficient Manual Sorting, Allied, and Indirect Operations.........................5
                                                                           Unnecessary and Underused Highway Contract Route Transportation.....6
                                                                           Safety and Security Concerns....................................................................8
                                                                          Recommendations........................................................................................9
                                                                           Management’s Comments........................................................................10
Findings




                                                                           Evaluation of Management’s Comments..................................................10
                                                                          Appendices..................................................................................................12
                                                                           Appendix A: Additional Information...........................................................13
                                                                             Background............................................................................................13
                                                                             Objective, Scope, and Methodology.......................................................14
                                                                             Prior Audit Coverage..............................................................................16
Recommendations




                                                                           Appendix B: Operational Analysis.............................................................17
                                                                             Comparison to Other Network Distribution Centers...............................17
                                                                             Potential Sources of Workhour Reduction.............................................18
                                                                             Appendix C: Detailed Transportation Analyses and Observations.........21
                                                                             Unnecessary and Underused Transportation.........................................21
                                                                           Appendix D: Management’s Comments...................................................23
                                                                          Contact Information.....................................................................................28
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                    Print                      3
Highlights
                    Findings                                              Introduction
                                                                          This report presents the results of our self-initiated audit of operations and transportation at the U.S. Postal Service’s Cincinnati,
                                                                          OH, Network Distribution Center (NDC), its associated NDCs in Des Moines, IA, and Pittsburgh, PA, and associated feeder
                                                                          processing facilities (Project Number 14XG001NO000). Our objective was to evaluate the efficiency of the Cincinnati NDC’s mail
                                                                          processing and transportation operations. See Appendix A for additional information about this audit.
                           We determined that some
                          Cincinnati NDC operations                       In 2009, the Postal Service began realigning its 21 bulk mail centers (BMC)1 into NDCs. NDCs are part of a national system
                                                                          of automated mail processing facilities linked by a dedicated transportation network. The Postal Service designed NDCs to
Table of Contents




                       and associated transportation                      consolidate mail processing and dispatch to increase operational efficiency and reduce workhours and transportation costs. The
                                                                          Postal Service reported savings of over $111 million in annual transportation and processing costs based on the realignment.
                         to and from the Des Moines                       NDCs are categorized as Tier 1, 2, or 3,2 depending on the operations their employees perform. All 21 NDCs perform at least
                      and Pittsburgh NDCs and their                       Tier 1 functions. Tier 2 and 3 NDCs act as transfer and consolidation points for other NDCs as well. The Cincinnati NDC is Tier 1.

                         feeder processing facilities                     As part of the NDC implementation process, management instituted manual sorting operations in and adjacent to dock operations
                                                                          at processing and distribution centers (P&DC) and processing and distribution facilities (P&DF). Manual operations separate and
                       could be more efficient. While                     consolidate mail for transport to Tier 2 NDCs. Further, the Postal Service added transportation between Tier 1 service areas and
                                                                          Tier 2 NDCs to accommodate manually sorted Tier 1 mail.
                         the Cincinnati NDC’s parcel
                        distribution operations were                      Conclusion
                                                                          We determined that opportunities exist to improve the efficiency of some operations at the Cincinnati NDC by better managing
Findings




                         efficient, opportunities exist
                                                                          workhours and processing more mailpieces per hour. In fiscal year (FY) 2013, the Cincinnati NDC had a piece per hour (PPH)
                       to improve its productivity by                     productivity of 112 for distribution operations, while comparable NDCs had an average PPH productivity of 186. In addition, the
                                                                          Cincinnati NDC used a higher percentage of workhours than comparable NDCs for allied and indirect operations. Consequently,
                     better managing workhours and                        the Cincinnati NDC missed an annual cost avoidance of about $2 million3 because they used 51,352 more workhours than
                     processing more mailpieces per                       necessary to process its mail volume. These conditions occurred because Cincinnati NDC management did not fully evaluate
                                                                          operational efficiency by benchmarking operations against similar NDCs.
                       hour in its manual operations.
Recommendations




                                We also found some
                         unnecessary and inefficient
                                 transportation and
                                   safety concerns.


                                                                          1  The Postal Service developed this dedicated network to reduce delays and damage from handling bulk mail in a system designed primarily for letter mail that has to
                                                                             compete with First-Class and other classes of mail for processing time and transportation space. The term “bulk mail” includes Package Services, Periodicals, and
Appendices




                                                                             Standard Mail with service standards from 1 to 10 days. Some NDCs have incorporated surface transfer center operations that handle significant volumes of First-Class
                                                                             and Priority Mail.
                                                                          2  Tier 1 NDCs are responsible for distributing local mail and destinating Standard Mail, Periodicals, and Package Services. Tier 2 NDCs are responsible for distributing
                                                                             outgoing Standard Mail, Periodicals, and Package Services, as well as Tier 1 responsibilities. Tier 3 NDCs have both Tier 1 and Tier 2 NDC responsibilities and are
                                                                             consolidation points for less than truck load volumes from Tier 2 sites.
                                                                          3  The U.S. Postal Service Office of Inspector General (OIG) acknowledges that every NDC has different processing equipment that can impact productivity. However, based on
                                                                             analysis of Management Operating Data System and Breakthrough Productivity Initiative data, the Cincinnati NDC can eliminate 51,352 workhours in Function 1.
                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                                                Print                                              4
Highlights                                                                We also found the Cincinnati NDC unnecessarily transported some mail to the Des Moines and Pittsburgh NDCs. This local mail
                                                                          should have remained at the Cincinnati NDC. Further, we found instances where employees were not consolidating mail trays and
                                                                          flat tubs in some mail transport equipment (MTE) rolling stock containers4 arriving from feeder locations into fewer containers at
                                                                          plant docks. As a result, some trailers were carrying underutilized MTE. These conditions occurred because officials did not always
                                                                          follow NDC guidelines5 for properly sorting, labeling, and consolidating mail into fewer containers prior to transporting it to the
                                                                          Des Moines NDC.

                                                                          In addition, we found the Postal Service underused transportation overall between the Cincinnati and Des Moines NDCs. This
                                                                          occurred because management did not fully analyze existing transportation among the NDCs and feeder processing facilities
Table of Contents




                                                                          during NDC realignment and added trips that were not needed. We estimate the Postal Service could save about $473,000 in
                                                                          transportation costs annually by complying with NDC guidelines and combining or eliminating a low-volume round trip.

                                                                          Finally, we observed employees not properly restraining some MTE rolling stock and pallets in trailers for transport to and from the
                                                                          NDCs. This occurred because employees were not following Postal Service policy for restraining trailer loads and managers were
                                                                          not reinforcing the policy.6

                                                                          Inefficient Manual Sorting, Allied, and Indirect Operations
                                                                          We determined the Postal Service has opportunities to improve productivity at the Cincinnati NDC by managing workhours
                                                                          and manually processing more mailpieces per hour. In FY 2013, the Cincinnati NDC did not attain the average productivity of
                                                                          comparable NDCs. Comparing the Cincinnati NDC to NDCs with similar equipment and mail distribution processes provides a
Findings




                                                                          benchmark for operational efficiency. The Cincinnati NDC had a PPH productivity of 112, while the average PPH for similar NDCs
                                                                          was 186.

                                                                          Figure 1: Comparable NDCs’ PPH Productivity for FY 2013
Recommendations




                                                                                              MINN-SAINT PAUL      KANSAS CITY      WASHINGTON, DC       CINCINNATI


                                                                          Source: U.S. Postal Service Enterprise Data Warehouse (EDW).
Appendices




                                                                          4  Various container types used to transport individual mail handling units (sacks, tubs, trays, packages).
                                                                          5  In 2009 (as part of the NDC activation process), the Postal Service’s acting manager, NDC Operations, issued Network Distribution Center Activation Guidelines for the
                                                                             proper sortation, labeling, and consolidation of NDC mail to be transported for processing.
                                                                          6  Logistics Order LO201101, dated February 8, 2011, prescribes policies for the safe loading and proper restraint of mail during transportation to facilities. In particular, the
                                                                              order states that “All vehicles transporting containers and pallets must have the load secured with two restraining devices about every 10 feet.”
                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                                                       Print                                                   5
Highlights                                                                Variations in operations performed at different NDCs required a review of specific labor distribution codes (LDC).7 Thus, we
                                                                          reviewed the corresponding LDC codes listed in Table 1.

                                                                          Table 1: LDCs Reviewed

                                                                                                                                       Hover over the LDC code numbers for category descriptions

                                                                                                                                           PARCEL DISTRIBUTION
Table of Contents




                                                                                                                                         MANUAL DISTRIBUTION
                                                                                                                                             ALLIED OPERATIONS
                                                                                                                                               INDIRECT/RELATED
                                                                          We determined the Cincinnati NDC’s parcel distribution operations are efficient compared to similar facilities; however, the
                                                                          Postal Service could improve productivity in manual distribution operations and reduce workhours in allied and indirect
                                                                          operations to further improve efficiency.
Findings




                                                                          These productivity issues occurred because Cincinnati NDC management did not use best practices to fully evaluate operational
                                                                          efficiency by benchmarking operations against those of comparable NDCs. Overall, to increase productivity to meet the average
                                                                          productivity of comparable NDCs, Cincinnati NDC management needs to eliminate 51,352 workhours. Management could also
                                                                          increase productivity by increasing volume. This would produce a cost avoidance of about $2 million annually. See Appendix B for
                                                                          more information.

                                                                          Unnecessary and Underused Highway Contract Route Transportation
Recommendations




                                                                          From our observations and inspection of rolling stock containers, we determined the Cincinnati NDC was unnecessarily
                                                                          transporting some mail to the Des Moines and Pittsburgh NDCs. In addition, we found the Postal Service was underusing some
                                                                          highway contract route (HCR) transportation associated with the Cincinnati and Des Moines NDCs and it could combine or
                                                                          eliminate one round trip.

                                                                          Unnecessary Transportation of Local Mail. From our observations and inspection of rolling stock containers, we determined that
                                                                          some local Cincinnati mail did not stay at the Cincinnati NDC for processing. Instead, the NDC unnecessarily transported it to
                                                                          the Des Moines and Pittsburgh NDCs for processing and those NDCs returned it to the Cincinnati NDC for reprocessing and
                                                                          distribution. This extra step occurred because some local Cincinnati associated offices and stations were sending mail containers
                                                                          to the Cincinnati P&DC with local (Tier 1) and network (Tier 2) mail commingled.8 The local plants and some stations were not
                                                                          making the required separations and were using the wrong placards.9
Appendices




                                                                          7  A two-digit code that identifies workhours by function.
                                                                          8  Specifically, we found Retail Distribution Code (RDC) 01 (Local NDC Machinable Packages – Tier 1 Package Services) and RDC 02 and 03 (Network NDC Machinable
                                                                             Packages – Tier 2 Packages Services) mail commingled in individual mail containers with RDC 02 or 03 placards. Additionally, we found RDC 11 (Local NDC NMOs) and
                                                                             RDC 12 and 13 (Network NDC non-machinable outside parcels) mail commingled in containers with RDC 12 and 13 placards. RDC 01 and RDC 11 mail is supposed to be
                                                                             transported to the local NDC.
                                                                          9  Placarding involves placing unique barcodes (on a single page) on MTE to identify origin, destination, and mail class.
                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                                           Print                                            6
Highlights                                                                In addition, we found that some machinable parcels10 were commingled in containers with NMO parcels, making it more difficult for
                                                                          the P&DCs to easily consolidate containers.11

                                                                          Figure 2. Machinable and NMO Parcels Commingled in MTE Equipment

                                                                                                                         	
Table of Contents




                                                                          Source: OIG photographs taken November 13, 2013. NMO parcels mixed with machinables in MTE.


                                                                          Furthermore, we observed that some MTE rolling stock containers at the Cincinnati NDC awaiting transport to the Des Moines
                                                                          and Pittsburgh NDCs were not filled to capacity. This occurred because area plant officials were not consolidating rolling stock
                                                                          containers as required by NDC guidelines.12 Supervisors at the plants stated that they did not have enough room on the docks
Findings




                                                                          to consolidate the containers. As a result, the Postal Service was using more rolling stock containers and trailer space than
                                                                          necessary. These conditions resulted in unnecessary transportation of mail from the Cincinnati NDC to the Des Moines and
                                                                          Pittsburgh NDCs and additional handling and workhours.13

                                                                          Underused HCR Transportation. Based on our analysis of existing HCR transportation, we concluded the Postal Service could
                                                                          make transportation operations more efficient by eliminating a daily round trip between the Cincinnati and Des Moines NDCs that
                                                                          involves low mail volume (see Appendix C for our detailed analysis of trips).
Recommendations




                                                                          We realize the NDC tiered concept resulted in low volumes available for return trips. We concluded the Postal Service could
                                                                          eliminate over 311,000 miles and save about $473,000 annually in HCR costs without reducing on-time service performance.
Appendices




                                                                          10	The Domestic Mail Manual defines an NMO as a parcel larger than 27 inches x 27 inches x 1 inch and heavier than 35 pounds.
                                                                          11	 If mail was coming into the P&DC correctly separated, plant employees could easily combine containers and use less transportation to move the mail.
                                                                          12	 In the Network Distribution Center Activation Guidelines, Tier 1 NDC Communications, dated June 15, 2009, less than full MTE rolling stock “must be consolidated before
                                                                              loading to maximize container and transportation utilization.”
                                                                          13	 We did not assess the monetary impact of rehandling mail due to time constraints and our limited observations. We did confirm, through observations and discussions with
                                                                              Postal Service officials, that mail was being unnecessarily handled (processed more than once).
                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                                                Print                                               7
Highlights                                                                Safety and Security Concerns
                                                                          During our review of the loading and unloading of containers at the Cincinnati NDC, we consistently observed employees not
                                                                          following Postal Service policy for restraining trailer loads. Postal Service policy requires two straps for every 10 feet of rolling
                                                                          stock.14 However, employees in some cases used only two or three straps at the back end of the entire load in the 53-foot
                                                                          trailers to secure MTE rolling stock. This increases the risk the load will shift during transport, potentially injuring employees and
                                                                          contractors, damaging mail, and endangering the general public in the event that contents spill onto roadways (see Figure 3).15

                                                                          Figure 3. Inadequate Number of Load Restraining Straps
Table of Contents




                                                                                                                            Source: OIG photograph taken November 11 – 15, 2013. A trailer with only two straps at
                                                                                                                            the end of the load and no other straps restraining the rolling stock at the Cincinnati NDC.
Findings




                                                                          We also determined that employees did not always secure MTE rolling stock pins in the stake pockets available on the trailer bed
                                                                          floors, as shown in Figure 4. This increases the risk that the load will not be properly restrained. Safety procedures require that
                                                                          MTE rolling stock heavy with mail (such as over-the-road [OTR] containers) be secured in the stake pockets.

                                                                          Figure 4. Large OTR Containers not Secured in Trailers at the Cincinnati NDC
Recommendations




                                                                          		
Appendices




                                                                                                             Source: OIG photographs taken November 13, 2013. Trailer arriving at the Cincinnati NDC with pins not in the stake pockets.




                                                                          14	 Logistics Order LO201101, dated February 8, 2011, prescribes policies for safe loading and proper restraint during transportation of mail to facilities. In particular, the order
                                                                              states that “All vehicles transporting containers and pallets must have the load secured with two restraining devices about every 10 feet.”
                                                                          15	 Improperly restrained trailer loads of mail have resulted in unnecessary movement of containers within trailers, damaging containers and mail.
                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                                                               Print                                         8
Highlights
                    Recommendations                                       We recommend the vice president, Eastern Area:

                                                                          1.	 Improve the efficiency of the Cincinnati Network Distribution Center’s distribution operations by attaining the average
                                                                              productivity level of 186 mailpieces per workhour by fiscal year 2016.

                                                                          2.	 Reduce the amount of workhours used for allied and indirect operations by 2.15 percent and 4.14 percent, respectively, to be
                                                                              in line with workhours used for those operations at similar network distribution centers.
                                 We recommend the
                                                                          We also recommend the vice presidents, Eastern and Western areas:
Table of Contents




                          Postal Service improve the
                    efficiency of the Cincinnati NDC’s 3.	 Remove an unnecessary highway contract round trip associated with the Cincinnati and Des Moines Network Distribution
                                                                             Centers.
                      manual operations and reduce
                                                                          4.	 Reinforce field, feeder station, and plant employee compliance with network distribution center guidelines for properly sorting,
                      workhours in other operations;                          labeling, and consolidating mail prior to transport.
                    remove an unnecessary highway
                                                                          5.	 Reinforce existing safety procedures requiring restraint of mail transport equipment rolling stock containers in trailers.
                        contract round trip; reinforce
                    compliance with NDC guidelines;
                        and reinforce existing safety
Findings




                                       procedures.
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                        Print                                    9
Highlights                                                                Management’s Comments
                                                                          The Eastern Area disagreed with our finding and recommendation 1 to improve the efficiency of the Cincinnati NDC distribution
                                                                          operations by raising the average productivity level to the average of comparable facilities. The Eastern Area stated that the
                                                                          Postal Service uses the Breakthrough Productivity Initiative (BPI) to measure productivity and it shows the Cincinnati NDC
                                                                          outperforms similar NDCs used in our analysis for benchmarking. In addition, the Eastern Area stated that there is a large disparity
                                                                          between similar NDCs in regards to workload credit for LDC 17 and indicated that our analysis of PPH is not credible for LDC 17
                                                                          and 18 because of the disparity. However, management acknowledged that there is opportunity to improve efficiencies and will
                                                                          continue to monitor and provide feedback on performance during weekly teleconferences.
Table of Contents




                                                                          Management partially agreed with our finding and recommendation 2 to reduce the amount of workhours used for allied and
                                                                          indirect operations and stated they are committed to improve efficiency to reduce workhours in those operations. The Eastern Area
                                                                          stated there are many factors that could contribute to the higher workhour usage for LDC 17 and18 for its facility as compared to
                                                                          other facilities. For example, the similar NDCs in our analysis may be using different operations or have functional towlines.

                                                                          Both the Eastern and Western Areas disagreed with our finding and recommendation 3 to remove unnecessary highway contract
                                                                          transportation. The Eastern Area stated they have a 78.2 percent utilization of trips between Cincinnati and Des Moines and they
                                                                          have already reduced service in that lane in July 2013. They stated they will continue to monitor this route and stay in contact with
                                                                          the Western Area to identify future opportunities. The Western Area based their disagreement on discussion with the Eastern Area.

                                                                          Both the Eastern and Western Areas fully agreed with our findings and recommendations 4 concerning the proper sorting, labeling,
Findings




                                                                          consolidation, and restraining of MTE equipment prior to the transport of mail. The Eastern Area stated the Cincinnati NDC had
                                                                          delivered a service talk on July 18, 2014, to their employees to ensure proper sorting, labeling, and containerization procedures.
                                                                          In addition, the Cincinnati NDC will also observe and spot-check containers for noncompliance of mail preparation procedures of
                                                                          feeder stations and associated offices. The Western Area stated they will issue a directive by September 5, 2014, to facilities to
                                                                          reinforce guidelines for properly sorting, labeling, and consolidating mail.

                                                                          Finally, both the Eastern and Western Areas agreed with our finding and recommendation 5 concerning reinforcing safety
Recommendations




                                                                          procedures that require the restraint of MTE equipment rolling stock containers in trailers. The Western Area stated they will issue
                                                                          a directive to all facilities by September 5, 2014, to reinforce the restraint of MTE equipment in trailers, while the Eastern Area
                                                                          stated the Cincinnati NDC immediately addressed this issue by having service talks with its employees.

                                                                          See Appendix D for management’s comments, in their entirety.

                                                                          Evaluation of Management’s Comments
                                                                          Management disagreed with recommendation 1 to improve efficiency of distribution operations; partially agreed with
                                                                          recommendation 2 to improve efficiency of allied and indirect operations; and disagreed with recommendation 3 to remove one
                                                                          HCR round trip between Cincinnati and Des Moines. We will work with management during the process of closing out significant
                                                                          recommendations to resolve management’s comments and concerns.
Appendices




                                                                          Management agreed with recommendations 4 and 5 and we consider management’s comments responsive to these
                                                                          recommendations. Further, the corrective actions taken or planned for these recommendations should resolve the issues identified
                                                                          in the report.

                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                     Print                                  10
Highlights                                                                Regarding recommendation 1, we believe our findings and related monetary impact related to distribution operations are valid
                                                                          based on our assessment of productivity, even though the Postal Service uses the BPI to determine efficiency. We acknowledge
                                                                          the Postal Service’s BPI takes various factors into account, such as the floor space of a plant and the number of towlines, but
                                                                          we have not audited or validated BPI information and did not use it in our analyses. In addition, based on management’s initial
                                                                          input to our draft findings, we revised our methodology and compared the Cincinnati NDC to similar facilities — as opposed to
                                                                          all facilities — to account for facility differences. We determined the Cincinnati NDC’s parcel distribution operations were efficient
                                                                          compared those of similar facilities; however, the Postal Service could improve productivity in manual distribution operations. The
                                                                          Cincinnati NDC has the opportunity to save workhours through improved efficiency of its LDC 14 – Manual Distribution Operations.
                                                                          Comparable NDCs process, on average, 200 PPH, while the Cincinnati NDC processes 141 PPH.
Table of Contents




                                                                          Regarding management’s response to recommendation 2 and comment that our analysis of productivity is not credible due to
                                                                          workload credit, we did not use the PPH when calculating the efficiencies of LDC 17 and LDC 18. We calculated the efficiency
                                                                          for these LDCs by dividing total workhours by total function 1 workhours. We believe our calculations are still valid based on
                                                                          our methodology.

                                                                          Regarding recommendation 3, our analysis showed there were a total of eight round trips from Cincinnati to Des Moines. The
                                                                          data we analyzed were from January 1 to November 30, 2013. We did not include extra trips during peak season in our analysis
                                                                          because of the extra service needed. Our data showed the eight trips had a total combined use of 556 percent from Cincinnati to
                                                                          Des Moines and a total combined use of 507 percent from Des Moines to Cincinnati. Combining current transportation would allow
                                                                          the Postal Service to reduce transportation by at least one round trip, as recommended, and possibly more.
Findings




                                                                          The OIG considers all recommendations significant, and therefore requires OIG concurrence before closure. Consequently, the
                                                                          OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                                          Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                      Print                                  11
Highlights
                    Appendices

                                                                          Appendix A: Additional Information...........................................................13
                                                                           Background............................................................................................13
                                                                           Objective, Scope, and Methodology.......................................................14
                          Click on the appendix title                      Prior Audit Coverage..............................................................................16
Table of Contents




                                                                          Appendix B: Operational Analysis.............................................................17
                        to the right to navigate to the
                                                                           Comparison to Other Network Distribution Centers...............................17
                                    section content.                       Potential Sources of Workhour Reduction.............................................18
                                                                          Appendix C: Detailed Transportation Analyses and Observations...........21
                                                                           Unnecessary and Underused Transportation.........................................21
                                                                          Appendix D: Management’s Comments...................................................23
Findings
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                             Print                    12
Highlights          Appendix A:                                           Background
                    Additional Information                                The Postal Service’s NDCs are part of a national system consisting of 21 automated mail processing facilities linked by a
                                                                          dedicated transportation network. This system is dedicated to sorting and transporting bulk mail – Package Services,
                                                                          Standard Mail, and Periodicals. Network Operations is responsible for domestic mail processing and transportation networks.

                                                                          After several years of declining mail volume, a changed mail mix, and mailers entering more mail near final destinations, the
                                                                          volume of mail that former BMCs processed declined significantly. Facing the need to reduce costs and recognizing opportunities
                                                                          to make better use of space in trailers sent on long-distance transportation routes and to improve mail dispatching and
Table of Contents




                                                                          processing operations, the Postal Service reorganized the 21 facilities into NDCs with a three-tiered structure. Under the plan,
                                                                          NDCs consolidated mail processing and dispatching to achieve economies of scale, greater operational efficiency, and reduced
                                                                          workhours and transportation costs. The Postal Service saved over $111 million in transportation and processing costs based on
                                                                          the realignment. According to the NDC realignment plans, Tier 1 facilities send and receive mail to or from their Tier 2 NDCs. In
                                                                          May 2009, the Postal Service activated Phase 1 of the NDC concept and began implementation in Cincinnati in March 2010. The
                                                                          Cincinnati NDC is Tier 1.

                                                                          The Postal Service implemented the NDC network in phases, with phases II through IV implementation accelerated before the
                                                                          Postal Service completed, sufficiently analyzed, and properly evaluated Phase I. The agency also instituted manual sorting
                                                                          operations in and adjacent to dock operations at P&DCs and P&DFs. The manual operations are responsible for separating and
                                                                          consolidating mail for transport to Tier 2 NDCs.
Findings




                                                                          In addition, management added transportation from Tier 1 service areas to Tier 2 NDCs to accommodate transportation of
                                                                          manually sorted Tier 1 mail. The new layer of transportation from the Cincinnati NDC service area to the Des Moines and
                                                                          Pittsburgh NDCs for originating mail was planned to be efficient only on inbound trips to Des Moines or Pittsburgh. See the
                                                                          map in Figure 5 showing all 21 NDCs by tier.
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                    Print                                 13
Highlights
Table of Contents                                                         Figure 5. Location of NDCs Nationwide by Tier




                                                                          Source: Postal Blue Pages – Network Operations.



                                                                          Objective, Scope, and Methodology
Findings




                                                                          Our objective was to evaluate the efficiency of Cincinnati mail processing and transportation operations. This report focuses on
                                                                          processing and transportation at the Cincinnati NDC and related processing and transportation at the Des Moines and Pittsburgh
                                                                          NDCs and their feeder processing facilities.

                                                                          We performed this audit by comparing NDC productivity and evaluating the realignment of the transportation network. We
                                                                          identified the Cincinnati NDC as having the potential for savings through improved efficiency of productivity and transportation.
Recommendations




                                                                          The goal is to process and transport mail using the fewest resources needed while still meeting service timeframes.

                                                                          To assess efficiency, we observed mail processing operations and transportation operations, analyzed mail volume and workhours,
                                                                          reviewed HCR transportation trailer use, and analyzed machine use. We conducted site visits to evaluate transportation use and
                                                                          processing at the Cincinnati NDC and the Cincinnati P&DC. We also reviewed relevant Postal Service policies and procedures,
                                                                          interviewed managers and employees, observed and photographed operations, assessed mail container contents, and evaluated
                                                                          mail placarding (container labels).

                                                                          We interviewed Postal Service officials and benchmarked the Cincinnati NDC’s achievement of target productivities against
                                                                          comparable NDCs. We calculated PPH productivities for LDCs 13 and 14 and calculated workhour usage to overall workhours
                                                                          for LDCs 17 and 18, for FYs 2009 through 2013. We benchmarked the Cincinnati NDC’s productivity against the average
                                                                          productivity of comparable NDCs. We calculated the difference between Cincinnati NDC workhours and comparable NDCs’
Appendices




                                                                          average workhours for LDCs 13 and 14. For LDCs 17 and 18, we calculated the difference between the Cincinnati NDC’s
                                                                          percentage of workhours to overall workhours and compared the percentages to those of similar NDCs. We identified
                                                                          corresponding workhour costs for the differences and identified the workhour costs savings. In addition, we identified a
                                                                          round trip for consolidation and removal.
                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                      Print                                   14
Highlights                                                                We relied on Postal Service computer-processed data, including the Management Operating Data System, EDW, and the
                                                                          Web End-of-Run System to analyze mail volume and workhours. We also relied on HCR information from the Transportation
                                                                          Contract Support System and trailer use data from the Transportation Information Management and Evaluation System. We
                                                                          determined the data were sufficiently reliable for the purposes of this report.

                                                                          We conducted this performance audit from October 2013 through September 2013, in accordance with generally accepted
                                                                          government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                                          Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                                          basis for our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable
Table of Contents




                                                                          basis for our findings and conclusions based on our audit objective. We discussed our observations and conclusions with
                                                                          management on July 10, 2014, and included their comments where appropriate.
Findings
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                  Print                                 15
Highlights                                                                Prior Audit Coverage
                                                                                                                                                                             Monetary Impact
                                                                          Report Title                     Report Number          Final Report Date                            (In millions)
                                                                          Efficiency of the Atlanta
                                                                          Network Distribution
                                                                                                            NO-AR-13-005                8/16/2013                               $15,999,708
                                                                          Center – Processing and
                                                                          Transportation
                                                                          Report Results: This report determined that Atlanta NDC operations and associated transportation to and from the Memphis NDC
                                                                          could be more efficient. Management generally agreed with our recommendation to improve the efficiency of the Atlanta NDC’s mail
Table of Contents




                                                                          processing operations by attaining the above average median productivity level of 119 pieces per workhour. They also generally
                                                                          agreed with our recommendation to remove or modify existing HCR transportation associated with the Atlanta and Memphis NDCs,
                                                                          reinforce NDC guidelines to properly sort, label, and consolidate mail prior to transport, and reinforce safety procedures requiring the
                                                                          restraint of mail transport equipment in trailers.
                                                                          Efficiency Review of the Los
                                                                          Angeles Network Distribution       NO-AR-12-007               8/3/2012                                $14,001,557
                                                                          Center
                                                                          Report Results: This report determined that opportunities exist at the Los Angeles NDC to improve efficiency by reducing
                                                                          workhours and taking advantage of existing automation. Management agreed with the recommendations to improve operational
                                                                          efficiency by reducing workhours by 200,019 and disagreed with the associated workhour savings. They also agreed to provide more
                                                                          training, including employee oversight training, and improve the maintenance program and sorting operations.
                                                                          POSTAL SERVICE
                                                                          INITIATIVE: Consolidation
                                                                          of Mail for Transportation         NL-AR-12-006               5/29/2012                               $15,365,532
                                                                          Between Network Distribution
Findings




                                                                          Centers
                                                                          Report Results: This report determined that the loading and unloading method used before the mail consolidation pilot was
                                                                          efficient based on workhours; however, it resulted in additional transportation costs. Management generally agreed with our
                                                                          recommendations, but not our monetary impact, stating they expanded the number of consolidation lanes in February 2012, would
                                                                          continue to pursue additional opportunities and a 2.5:1 utilization ratio; and would evaluate the consolidation of mail bound for Puerto
                                                                          Rico. Management also stated they would conduct locally managed quarterly meetings with contractors.
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                        Print                                    16
Highlights          Appendix B:                                           Comparison to Other Network Distribution Centers
                    Operational Analysis                                  Comparing the Cincinnati NDC to NDCs with similar equipment and distribution processes provides a benchmark for operational
                                                                          efficiency. Variations in operations performed at different NDCs require a review of the specific LDCs.16

                                                                          We found that the Cincinnati NDC is efficient in LDC 13 – Mechanized Distribution Operations. Comparable NDCs processed, on
                                                                          average, 248 PPH during FY 2013, while the Cincinnati NDC processed 262 PPH. As a result, the Cincinnati NDC used
                                                                          15,370 fewer workhours than comparable NDCs annually (see Table 2).
Table of Contents




                                                                          Table 2: LDC 13 – Parcel Distribution Potential Workhour Efficiencies

                                                                                                              Comparable NDCs                   Cincinnati NDC
                                                                          LDC 13 Volume                                   203,567,977                    71,174,459
                                                                          LDC 13 Workhours                                    821,626                       271,899
                                                                          LDC 13 Productivity                                248 PPH                      262 PPH
                                                                          Cincinnati NDC Target
                                                                          Workhours*1                                                                       287,269
                                                                          Potential Workhour                                                                    15,370
                                                                          Efficiencies
                                                                          *Source: EDW.
                                                                          1 The number of workhours necessary to raise Cincinnati NDC productivity to that of
                                                                          comparable NDCs’ average productivity.
Findings
Recommendations
Appendices




                                                                          16	 The Postal Service compiles workhour, labor use, and other financial reports for management’s use by functional category or LDC.
                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                                                Print            17
Highlights                                                                Potential Sources of Workhour Reduction
                                                                          We also identified specific mail processing functions for which the Cincinnati NDC could improve efficiency. Table 3 shows a
                                                                          complete breakdown of potential workhour savings/redistribution by LDC. We calculated these savings by raising Cincinnati NDC
                                                                          productivity to the average productivity of comparable NDCs. We calculated LDC 14 productivity as PPH, since mail volume is
                                                                          directly involved, and calculated LDC 17 and 18 productivity as a percentage of total workhours, as they are ancillary functions.
                                                                          Raising the Cincinnati NDC’s productivity for these comparable operations to the average level would require a reduction of
                                                                          51,352 workhours (see Table 3).
Table of Contents




                                                                          Table 3: Summary of Potential Workhour Savings

                                                                                                                              Potential
                                                                                                                              Workhour
                                                                                           LDC 1                              Savings
                                                                          LDC 14 – Manual Distribution                                   7,032
                                                                          LDC 17 – Allied Operations                                    15,155
                                                                          LDC 18 – Indirect/Related                                     29,165
                                                                          Total                                                         51,352
                                                                          Source: EDW.
                                                                          1 The Postal Service uses LDC 13 to record mechanized distribution
                                                                          operations and LDC 14 to record manual sortation of letters and
                                                                          flats. LDC 17 records hours in allied operations or mail processing
Findings




                                                                          operations spent on activities other than distribution, including mail
                                                                          preparation, presort operations, opening, pouching, and platform
                                                                          operations.
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                    Print                                 18
Highlights                                                                LDC 14 – Manual Distribution

                                                                          The Cincinnati NDC has the opportunity to save workhours through improved efficiency of its LDC 14 – Manual Distribution
                                                                          Operations. Comparable NDCs process, on average, 200 PPH, while the Cincinnati NDC processes 141 PPH. Increasing
                                                                          Cincinnati NDC productivity to comparable NDC average productivity could save 7,032 workhours annually (see Table 4).

                                                                          Table 4: LDC 14 – Manual Distribution Potential Workhour Savings

                                                                                                                               Comparable              Cincinnati
Table of Contents




                                                                                                                                 NDCs                     NDC
                                                                          LDC 14 Volume                                             11,289,358             3,380,462
                                                                          LDC 14 Workhours                                             398,291                23,959
                                                                          LDC 14 Productivity                                         200 PPH               141 PPH
                                                                          Cincinnati NDC Target Workhours*                                                    16,927
                                                                          Potential Workhour Savings                                                          (7,032)
                                                                          *Source: EDW.
                                                                          Note: The number of workhours necessary to raise Cincinnati NDC productivity to comparable
                                                                          NDCs’ average productivity.



                                                                          LDC 17 – Allied Operations
Findings




                                                                          Allied operations provide another opportunity for the Cincinnati NDC to reduce workhours. LDC 17 includes mail preparation —
                                                                          presort operations, opening, pouching, and platform operations. During FY 2013, the Cincinnati NDC used over 47 percent of its
                                                                          processing workhours in LDC 17, while NDCs comparable to the Cincinnati NDC used 45 percent of their workhours in allied labor.
                                                                          Reducing LDC 17 workhours by 15,155 would enable the Cincinnati NDC to raise productivity to the average of that of comparable
                                                                          NDCs (see Table 5).

                                                                          Table 5: LDC 17 – Allied Operations Potential Workhour Savings
Recommendations




                                                                                                                                 Comparable               Cincinnati
                                                                                                                                   NDCs                      NDC
                                                                          Total Workhours                                      2,133,436                        704,830
                                                                          LDC 17 Workhours                                     961,324                          332,751
                                                                          LDC 17 Percentage to Workhours                       45.06%                           47.21%
                                                                          Cincinnati NDC Target Workhours*                     317,596
                                                                          Potential Workhour Savings                                                           (15,155)
                                                                          *Source: EDW.
                                                                          Note: The number of workhours necessary to raise Cincinnati NDC productivity to the average of
                                                                          comparable NDCs. Cincinnati NDC workhours should be the same percentage as that of the average
                                                                          of comparable NDCs, which, in this case, is 45.06 percent.
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                           Print                      19
Highlights                                                                LDC 18 – Indirect/Related (Miscellaneous Operations)

                                                                          The Postal Service can also reduce workhours for the Cincinnati NDC for LDC 18, which includes stand-by time, empty equipment
                                                                          processing, office work, and several other activities. The Cincinnati NDC used over 7 percent of its processing workhours in LDC
                                                                          18 during FY 2013. Comparable NDCs used, on average, just over 3 percent of their workhours in indirect labor. By reducing
                                                                          workhours by FY 2016, the Cincinnati NDC could raise productivity to that of the average of comparable NDCs (see Table 6).

                                                                          Table 6: LDC 18 – Indirect Operations Potential Workhour Savings
Table of Contents




                                                                                                                               Comparable NDCs                   Cincinnati NDC
                                                                          Total Workhours                                                     2,133,436                        704,830
                                                                          LDC 18 Workhours                                                       76,165                          54,328
                                                                          LDC 18 Percentage to Workhours                                         3.57%                           7.71%
                                                                          Cincinnati NDC Target Workhours*                                                                       25,163
                                                                          Potential Workhour Savings                                                                           (29,165)
                                                                          *Source: EDW.
                                                                          Note: The number of workhours necessary to raise Cincinnati NDC productivity to the average of that of comparable
                                                                          NDCs. Cincinnati NDC workhours should be the same percentage as that of the average of comparable NDCs, which,
                                                                          in this case, is 3.57 percent.
Findings
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                                              Print     20
Highlights          Appendix C:                                           Based on our analyses of existing HCR transportation, we concluded the Postal Service could eliminate one round trip between
                                                                          the Cincinnati and Des Moines NDCs. Table 7 summarizes the affected HCRs and related transportation cost impacts. The net
                    Detailed Transportation
                                                                          savings identified is about $473,000 annually.
                    Analyses and Observations
                                                                          Table 7: HCR Transportation Savings

                                                                           WORKSHEET     HCR     SEG    PRE MILEAGE POST MILEAGE MILEAGE CHANGE PRE ANNUAL RATE POST ANNUAL RATE ANNUAL RATE CHANGE

                                                                             HCR 1      45,213    A     3,475,148.9 3,163,791.1   (311,357.8)    $6,208,148.72   $5,735,359.76     ($472,788.96)
Table of Contents




                                                                                       TOTAL            3,475,148.9 3,163,791.1   (311,357.8)    $6,208,148.72   $5,735,359.76     ($472,788.96)



                                                                          Unnecessary and Underused Transportation
                                                                          We observed some mail containers arriving at the Cincinnati NDC from local plants and stations with local (Tier 1) and network
                                                                          (Tier 2) mail commingled.17 In addition, we found that some machinable parcels18 were commingled in containers with NMO
                                                                          parcels. We observed employees at the Cincinnati local processing plants, retail units, and stations not properly separating local
                                                                          and network mail and employees at local plants not separating the mail on the docks, as required, prior to sending it to the NDCs.
                                                                          Figure 6 shows a mail container from a retail unit with an improperly prepared placard. Specifically, the station did not use the
                                                                          proper mail transport equipment label (MTEL) placard with scannable barcodes.
Findings
Recommendations
Appendices




                                                                          17	 We calculated Cincinnati NDC target workhours by multiplying Cincinnati NDC mail volume and median NDC productivity. The workhour savings is the difference between
                                                                              target workhours and Cincinnati NDC workhours.
                                                                          18	The Domestic Mail Manual defines an NMO as “a parcel larger than 27” x 17” x 17” and heavier than 35 pounds, an irregularly shaped parcel, or an outside parcel.”
                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                                                      Print                                   21
Highlights
Table of Contents                                                         Figure 6. Containers Improperly Labeled With a Retail Unit Placard




                                                                          	 Source: OIG photograph taken November 12, 2013, at the Cincinnati P&DC. Retail placard labeled 03 was used but MTEL placards (which have a scannable barcode) should have been used.19


                                                                          We observed that Postal Service staff was not consolidating mail from stations and post offices in the Cincinnati NDC area into
                                                                          MTE containers at plant docks before sending them to the Cincinnati, Des Moines, and Pittsburgh NDCs. Many containers were
                                                                          only 20 to 30 percent full and could have easily been combined on the docks of the plants. In addition, we observed very low
                                                                          volumes of mail in trailers. This mail should have been combined, resulting in fewer HCR trips to transport the mail (see Figure 7).

                                                                          Figure 7. Trailer and MTE Underuse at Plants

                                                                                                                            	
Findings
Recommendations




                                                                          Source: OIG photograph taken November 13, 2013,          Source: OIG photograph taken November 13,
                                                                          at the Cincinnati NDC. MTE that was only                 2013, at the Cincinnati NDC. A trailer that was
                                                                          10 percent full.                                         less than 20 percent full.
Appendices




                                                                          19  MTEL placards have a unique scannable barcode as described in the User Guide for MTEL National – AO/DU/Functionality, dated 10/3/2007.
                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                                                                         Print                                                 22
Highlights          Appendix D:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                          Print   23
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                          Print   24
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                          Print   25
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                          Print   26
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                          Print   27
Highlights
Table of Contents
Findings




                                                                             Contact us via our Hotline and FOIA forms, follow us on social
                                                                          networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                                 or abuse. Stay informed.
Recommendations




                                                                                                1735 North Lynn Street
                                                                                               Arlington, VA 22209-2020
                                                                                                     (703) 248-2100
Appendices




                    Efficiency Review of the Cincinnati, OH, Network
                    Distribution Center – Operations and Transportation
                    Report Number NO-AR-14-011
                                                                                                                                                   Print   28
